FINAL DOE RPT COVERS.QXD   10/27/05   9:30 AM   Page 1
FINAL DOE RPT COVERS.QXD     10/27/05   9:30 AM   Page 2




            Front Cover


            From left to right:

            A barge shown docked at Phillips Terminal at the Strategic Petroleum Reserve in
            Bryan Mound, Texas.

            Wind turbines at Storm Lake, Iowa.

            High pressure water being used to blast salt cake into manageable fragments in a waste tank
            mockup at the Hanford Site.

            The McNary Dam, which is one entity of the Bonneville Power Administration’s responsibility
            for transmission and wholesale marketing of power generated at dams in the Federal River
            Power System.

            A sodium cooled reactor for testing fuels and materials under normal operating conditions at the
            Fast Flux Test Facility.
                             SEMIANNUAL REPORT TO CONGRESS




                           Table of Contents

Inspector General’s Message . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
    Contract Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
    Environmental Cleanup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
    Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
    National Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
    Project Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
    Stockpile Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



Other Significant Accomplishments . . . . . . . . . . . . . . . . . . . . . . 15
    Administrative Safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
    Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
    Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
    Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
    Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
    Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
    Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
    Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
    Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
    Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29




                                                                  i
U . S . D E PA RT M E N T O F E N E R G Y                                      OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                      ii
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Inspector General’s Message

I
    am pleased to provide the Office of Inspector
    General’s (OIG) Semiannual Report to Congress
    for the reporting period ending September 30,
2005. This report highlights our most significant
accomplishments in identifying areas of
Department of Energy operations most vulnerable
to waste, fraud, and mismanagement.

During this reporting period, we continued to
assist the Department’s management in addressing
its mission-related priorities. As a direct result of
our audits and inspections, significant opportunities
for programmatic cost savings, operational efficiencies,
and enhanced results were identified. We issued 48 audit
and inspection reports, which contained recommendations
identifying over $247 million in savings. In addition, we referred 17 investigations for
prosecution and had 6 criminal convictions. Our work led to the recovery of over
$5.6 million in fines, settlements, and restitutions.

As has been the case the last several years, the issue of national security remains an area of
primary focus for our office. Over the past six months, the Office of Inspector General
issued a variety of reports addressing security vulnerabilities. These included:
  ■ Security at the Strategic Petroleum Reserve;
  ■ Access controls at the Y-12 National Security Complex;

  ■ Coordination of biological select agent activities at Department facilities; and,

  ■ Controls over Departmental critical monitoring and control systems.


In addition, consistent with the plan set forth by the President and the Secretary of Energy,
energy conservation continues to be a focal point of our work. Consequently, we initiated
reviews of: (1) the management of fossil energy research and development in Departmental
cooperative agreements; and, (2) the management of selected energy efficiency and
renewable energy projects. Based on recent events, our work in the coming period will
continue to emphasize the importance of reliable energy sources and energy conservation.

Apart from our continuing efforts related to gauging the performance of Departmental
operations, my role as the Vice Chair of the President’s Council on Integrity and Efficiency
(PCIE) has provided me with the opportunity to work with the entire Inspector General
community to enhance integrity and efficiency in Government-wide programs. In the wake




                                                1
U . S . D E PA RT M E N T O F E N E R G Y                 OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




                                                             of the tragic losses caused by
                                                             recent hurricanes, guarding
                                                             against fraud, waste, and abuse
                                                             during the relief and rebuilding
                                                             efforts has become a fundamental
                                                             objective of the Inspector General
                                                             community. It is imperative that
                                                             the billions of dollars
                                                             appropriated for relief and
                                                             rebuilding are used for their
                                                             intended purposes, which
                                                             includes the important task of
                                                             assisting the affected citizens and
                                                             businesses in recovering from
                                                             these losses. I am working with
the Department and with my colleagues in other agencies to help ensure that the funds
appropriated for the relief and recovery effort are spent properly and effectively.

The Office of Inspector General remains committed to being an instrument for positive
change in the Department. This goal is achieved through the diligent work of all OIG
employees. In addition to the outstanding results demonstrated through our various audits,
inspections, and investigations, this year we were the proud recipients of five “Award for
Excellence” honors from the PCIE. I would like to express my appreciation for the
accomplishments of all OIG employees and commend them for their continued
professionalism and dedication. I also wish to thank the Department for its cooperation
and support for our efforts to serve the American taxpayer.




                                                                Gregory H. Friedman
                                                                Inspector General




                                               2
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                         Management Challenges

As required by the Reports Consolidation Act of 2000, the OIG annually identifies the
most significant management challenges facing the Department. Highlights of our work
during the current reporting period, which are set forth in the following sections of this
report, are organized by management challenge area. This year, the OIG determined that
the most serious challenges facing the Department are:

           Internal Control Challenges                            Mission-Related Challenges
             Contract Administration                                Environmental Cleanup
             Information Technology                                    National Security
               Project Management                                    Stockpile Stewardship



Contract Administration
Performance Based Incentives by the Office of Civilian
Radioactive Waste Management
                                                      An OIG audit found that since 2001, the Office
                                                      of Civilian Radioactive Waste Management
                                                      (OCRWM) paid approximately $4 million in
                                                      incentive fees to the Department contractor
                                                      managing its Yucca Mountain Site even though
                                                      contract performance expectations were not met.
                                                      Specifically, we determined that OCRWM paid
                                                      incentive fees despite the fact that:
                                                      ■Additional time beyond the performance period
Alpine mining machines excavate alcoves for testing   was needed by the contractor to correct poor
at Yucca Mountain
                                                      quality work;
    ■   Work scope was reduced due to poor contractor performance;
    ■   Delivered products were not acceptable to OCRWM; and,
    ■   OCRWM eliminated incentivized work because of concerns about the
        contractor’s performance.




                                                          3
U . S . D E PA RT M E N T O F E N E R G Y                          OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




We determined that OCRWM did not establish an adequate quality assurance plan, as
required by the Department’s acquisition regulations. The Office of Civilian Radioactive
Waste Management agreed with our findings, stating that the report would be used to
develop a comprehensive corrective action plan. (IG-0702)


Contractor Post-Retirement Health Benefits at the
Oak Ridge Reservation
Since 1994, we have issued a series of reports highlighting opportunities for the Department
to reduce the cost of contractor employee health benefit programs. Most recently, an OIG
audit determined that the National Nuclear Security Administration (NNSA) incurred and
will continue to incur unreasonable costs related to contractor employee post-retirement
health benefits at the Y-12 National Security Complex (Y-12). Specifically, NNSA is paying
100 percent of the employer’s portion of post-retirement health benefits for Y-12 employees
who transferred from the corporate offices of Y-12 contractors BWXT and Bechtel National,
regardless of how long they worked for the Department. This is predicated on having more
than 10 years of corporate service. Our audit revealed that because NNSA decided to
recognize corporate service in determining eligibility for post-retirement health benefits, the
Department will incur costs of approximately $460,000 for currently retired contractor
employees as well as accrue a future liability of more than $7 million for BWXT and
Bechtel employees currently working at Y-12. We issued recommendations designed to
ensure that post-retirement benefits are based solely on the work performed for Department
contract efforts. (IG-0690)


Loss of Government Property at the Idaho National Laboratory
An OIG inspection examined the internal controls of the Idaho National Laboratory (INL)
in order to ensure that Government property was protected from loss or theft. Our
inspection revealed that INL met property management requirements by accounting for 98
percent of inventoried property. However, our inspection also revealed that in the last 3
fiscal years, INL recorded 998 Government property items as missing with an acquisition
cost of $2.2 million. During the course of our inspection, we identified specific property
controls that could be improved, potentially resulting in a decrease in the overall amount of
missing property. We made several recommendations designed to enhance property controls
at the site. (IG-0687)




        Public reports are available in full text on our website at www.ig.doe.gov




                                              4
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Management Controls over Contractor Meal Expenses
The OIG conducted an audit to test management controls over meal expenses at
Department contractor operated sites. Our audit revealed that four of six Department
contractors were reimbursed approximately $255,000 for questionable meal costs.
Additionally, our audit found that the Department lacked assurance that policies regarding
employee meal costs were consistent or equitable. Management generally concurred with
our recommendations, indicating that guidance regarding contractor meal expenses would
be developed for use by contracting personnel, monitoring of contractor meal expenses
would be enhanced, and unallowable costs would be recovered. (OAS-M-05-04)


Technology Transfer and Commercialization Program at the
Idaho National Laboratory
Since the 1980s, the Department has transferred numerous technologies to the private
sector for commercialization. An OIG audit determined that specific financial management
activities within INL’s technology transfer and commercialization program were not
managed consistent with business-related contract requirements. Specifically, we determined
that the contractor did not properly recognize royalties due from licensing activities or
adequately monitor expenditures. Additionally, our audit revealed that the Idaho
Operations Office did not provide sufficient management oversight to ensure compliance
with contract provisions. We provided recommendations to improve management oversight
of the contractor’s financial controls. (OAS-M-05-07)


Inadequate Management Controls over Patent and
Royalty Income at the Ames Laboratory
In order to promote technology transfer, the Department encourages its laboratories to
commercialize research and development results through the patenting and licensing of
intellectual property. An OIG audit disclosed that the Ames Laboratory had not adequately
controlled or accounted for patent and royalty revenues, nor did the Laboratory maintain
accounting records for the approximately $3.5 million in patent and royalty revenues earned
in Fiscal Years 2002 and 2003. Furthermore, we found that the Ames Site Office did not
provide adequate oversight to ensure that the Laboratory established a plan for the use of
patent revenues. We made several recommendations designed to ensure that patent and
royalty revenues are safeguarded and used appropriately. (OAS-M-05-05)




                                             5
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                        SEMIANNUAL REPORT TO CONGRESS




Environmental Cleanup
Deactivation and Decommissioning of
Savannah River Site Facilities
                                                    An OIG audit found that deactivation and
                                                    decommissioning activities completed by the
                                                    Westinghouse Savannah River Company at the
                                                    Savannah River Site did not always result in a
                                                    reduction in the risk posed to the environment,
                                                    workers, or the public. Specifically, approximately
                                                    67 percent of the facilities completed by August
                                                    2004, at a cost of $7.8 million, posed little or no
                                                    risk to the environment, workers, or public. In
View of canisters that hold high-level waste at the addition, at the time of our review, 22 facilities that
Savannah River Site                                 did pose environmental, safety, and health risks had
                                                    not been scheduled for deactivation and
decommissioning. Further, our audit revealed that the Department could have avoided
approximately $2.2 million in annual surveillance and maintenance costs by concentrating
on closing the higher risk facilities at the site. Our review revealed that the Department’s
current approach may delay reductions in environmental, safety, and health risks associated
with higher risk facilities. We made several recommendations designed to ensure that
deactivation and decommissioning activities at the Savannah River Site are completed
promptly and efficiently. (IG-0684)


Characterization Wells at the Los Alamos National Laboratory
Pursuant to a Hydrogeologic Workplan, the Los Alamos National Laboratory (LANL) was
required to install 32 regional aquifer wells, commonly referred to as characterization wells,
to characterize the hydrogeologic setting beneath the Laboratory. Construction of the wells
was covered by the Resource Conservation and Recovery Act (RCRA). An OIG inspection
found that LANL did not adhere to specific constraints established by RCRA guidance
during the construction of the characterization wells. In addition, we found that LANL
could not assure that certain residual drilling fluids were fully removed after construction,
potentially creating a chemical environment that could mask the presence of radionuclide
contamination and compromise the reliability of groundwater contamination data. We
made several recommendations designed to ensure that all RCRA guidance is followed and
that monitoring data are reliable. (IG-0703)




                                                    6
OFFICE OF INSPECTOR GENERAL                                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Implementation of the National Environmental Policy Act at the
Idaho Operations Office
An OIG audit examined whether the Idaho Operations Office had complied with the
National Environmental Policy Act (NEPA) in evaluating its approach to treating high-level
waste at the Idaho Site. Our audit revealed that the Idaho Operations Office complied with
NEPA in evaluating how to treat high-level waste and dispose of related facilities.
Specifically, the Idaho Operations Office followed certain guidance provided by the Council
on Environmental Quality in implementing a NEPA strategy that required additional work
and more public involvement than is normally required by the traditional Environmental
Impact Statement (EIS) process. However, our audit revealed that the public was not able
to comment on specific portions of the Final EIS. Management concurred with our
recommendations, aimed at providing the public an opportunity to comment on portions of
the Final EIS. (OAS-M-05-08)


Beryllium Contamination Concerns at the
Y-12 National Security Complex
An OIG inspection of an allegation that equipment parts with trace levels of beryllium had
been shipped to a Y-12 non-beryllium building confirmed that this occurred, but was
allowable because the levels of beryllium on the parts were lower than standards set forth by
Title 10, Code of Federal Regulations, Part 850, “Chronic Beryllium Disease Prevention
Program.” However, during our inspection, we observed that a beryllium baseline inventory
and characterization, which was required by Department procedure, took approximately
16 months to complete following the discovery of beryllium on two band saws in the
Y-12 non-beryllium building. Given the significant health concerns related to beryllium
exposure, our inspection questioned the length of time taken to complete the baseline
inventory and characterization. We recommended that appropriate action be taken to
ensure that baseline beryllium inventories and characterizations are completed expeditiously
following the discovery of possible beryllium contamination. (INS-L-05-04)




        Public reports are available in full text on our website at www.ig.doe.gov




                                              7
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




Information Technology
Development and Implementation of the
Department’s Enterprise Architecture
Under the Clinger-Cohen Act of 1996, the Department and all other agencies are required to
implement what is commonly referred to as an “enterprise architecture,” a framework for
reducing costs and achieving efficiencies through sound business processes and technology
investment management. An OIG follow-up audit found that, despite significant effort, the
Department had not fully defined its current or future information technology requirements
and had not taken the necessary steps to ensure that program office architectures were
complete as well as compatible with the overall architecture design. Since 1998, the lack of
an enterprise architecture contributed to more than $155 million in lost opportunities for
information technology-related savings. We made several recommendations that are
necessary for the Department to fully implement a corporate approach for managing
information technology investments. (IG-0686)


The Department’s Unclassified Cyber Security Program
An evaluation of the Department’s unclassified cyber security program under the evaluation
requirements set forth by the Federal Information Security Management Act revealed that
while senior-level management officials have continued to focus their attention on
strengthening the Department’s cyber security, a number of systematic problems that expose
the Department’s critical systems still exist. Specifically, we found that:
   ■   An inventory of information systems had yet to be completed;
   ■   Many required system certifications and accreditations had not been performed;
   ■   Cyber security incidents were not always reported to law enforcement officials;
   ■   Problems with segregation of duties, inappropriate authority to access or modify
       information systems, and change control management continued; and,
   ■   Contingency planning, necessary to ensure systems could continue or resume
       operations in the event of an emergency or disaster, had not been completed.

We found that these problems occurred, at least in part, because Departmental and Federal
cyber security requirements were not always implemented or properly executed. Our report
included several recommendations designed to assist the Department in addressing security
weaknesses and implementing security configurations. (IG-0700)




                                                8
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Hackers Sentenced for Unauthorized Access to
Government Computers
As previously reported, a joint OIG investigation with the Federal Bureau of Investigation
(FBI) and other investigative agencies determined that two individuals gained unauthorized
access to multiple unclassified Government-owned computers, including two web servers at
the Department’s Sandia National Laboratory-New Mexico. The investigation determined
that the hackers modified two web pages on Sandia’s computer network. One subject pled
guilty to a felony count of Title 18, U.S.C. Section 1030, “Fraud and Related Activity in
Connection with Computers.” The subject was sentenced by the U.S. District Court,
District of Columbia, to a 1-year home detention, 3 years probation, $135,548 restitution,
and a $200 special assessment fee and was ordered not to access the internet for 4 years.
The second subject pled guilty in U.S. District Court, Northern District of California
(Oakland Division), to five counts of Title 18, U.S.C. Section 1030. During this reporting
period, the second subject was sentenced to 4 months in Federal prison, $71,181
restitution, and 3 years of supervised release. (I02TC020)


The Department’s Records Management Program
An OIG audit revealed that the Department had not adopted a comprehensive records
management program, nor had it implemented policies to meet National Archives and
Records Administration requirements governing records management. Specifically, we
found that the Department had not developed methods for archiving e-mail and other
electronic information and had not adequately planned for scheduling and disposition of
records held at its closure sites. Further, we noted that the Department could save over
$2 million by eliminating multiple document management and tracking systems that
perform essentially the same function. We made several recommendations designed to
improve the overall efficiency and effectiveness of the Department’s records management
program. (IG-0685)


Hacker Pleads Guilty to Unauthorized Access of
Government Computers
An OIG investigation performed jointly with the FBI, the U.S. Army Criminal
Investigation Division, and the National Aeronautics and Space Administration determined
that three employees of a computer security company gained unauthorized access to
multiple Government-owned and corporate computers, including an unclassified
Department computer located in Germantown, Maryland. The investigation also
determined that the subjects accessed, modified, and acquired unclassified electronic data on
several Government computer networks. One subject pled guilty to one misdemeanor
count of violating Title 18, U.S.C. Section 1030, “Fraud and Related Activity in




                                              9
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                        SEMIANNUAL REPORT TO CONGRESS




Connection with Computers,” and was sentenced to 60 days in a work-release program, 2
years probation, and 100 hours of community service and was prohibited from work
involving computer security while on probation. Judicial action is pending for the two
other subjects of this investigation. (I02TC026)




National Security
Security at the Strategic Petroleum Reserve
                                                    The Strategic Petroleum Reserve is designated as
                                                    part of the Department’s critical infrastructure.
                                                    An OIG inspection concluded that additional
                                                    measures could be implemented to improve
                                                    physical security at the Reserve. Specifically, the
                                                    inspection found that the level of protection
                                                    against the “insider threat” and the Reserve’s deadly
                                                    force policy may not be commensurate with its
                                                    designation as a part of the Department’s critical
Employees work on piping at the Strategic Petroleum infrastructure. Additionally, the inspection
Reserve in West Hackberry, Louisiana
                                                    determined that opportunities exist to improve
protective force performance tests. We made several recommendations designed to enhance
physical security at the Reserve. (IG-0693)


Protective Force Training at the Oak Ridge Reservation
An OIG inspection revealed that there were material shortcomings in the implementation
of protective force training at the Oak Ridge Reservation. Specifically, we found that:
   ■ Protective force personnel spent, on average, approximately 40 percent less time on

     combat readiness refresher training than was specified in the approved Fiscal Year 2004
     training plan;
   ■ For some personnel, planned training time was formally reported to the Department

     as actual training time, resulting in an overstatement of training received;
   ■ Protective force personnel at the Y-12 National Security Complex routinely worked in

     excess of 60 hours a week, despite a 60-hour maximum threshold for safe operations
     established by the Department’s Protective Force Program Manual; and,
   ■ Some protective force personnel signed attendance rosters for on-the-job refresher

     training without receiving the training.

Our report included several recommendations to ensure that training requirements are met
and protective force refresher training is being appropriately implemented. (IG-0694)


                                                   10
OFFICE OF INSPECTOR GENERAL                                    U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Coordination of Biological Select Agent Activities at
Department Facilities
The Department is planning and constructing five biosafety level-3 (BSL-3) research
laboratories, which are designed to contain biological select agents that can cause serious and
potentially lethal infections such as anthrax and the plague. An OIG inspection determined
that the Department had not established an orderly mechanism for coordinating its
biological select agent research and development activities. Specifically, no entity has been
assigned responsibility to coordinate biological select agent activities within the Department,
including the development, construction, and operation of the BSL-3 laboratories. As a
result of our inspection, the Department took initial action to create a central entity to
coordinate biological select agent activities. While this is a positive step, we recommended
that further actions be taken to ensure coordination of biological select agent activities and
issues across the Department. (IG-0695)


Security Access Controls at the Y-12 National Security Complex
An OIG inspection found that non-U.S. citizens with false identification documents were
improperly allowed access to a leased facility at the Department’s Y-12 National Security
Complex in Oak Ridge, Tennessee. We determined that access control procedures at Y-12
designed to prevent unauthorized access were either not implemented or were not effective.
When informed of our findings, Y-12 management took prompt corrective action, to
include issuing a revised access policy. However, we were concerned that similar findings
may exist at other sensitive Department sites; therefore, we recommended that management
determine whether Department-wide actions were warranted. In response, management
stated that future security inspections of Department facilities will include reviews of access
control procedures. (IG-0691)


Management Controls over Departmental Critical Monitoring and
Control Systems
An OIG audit revealed that the Department could not ensure that critical monitoring and
control systems could continue to operate in a crisis or resume operation with minimal
disruption and information loss in the event of an emergency. Specifically, our audit found
that sufficient plans or mitigation strategies were not in place because the Department had
not implemented a comprehensive risk management process. While improvements have
been made in this area at various sites, management generally concurred with our findings
that additional actions are necessary to improve the overall security of the Department’s
critical monitoring and control systems. (OAS-M-05-06)




                                              11
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




Recording of Telephone and Radio Conversations by Sandia
Protective Force Management
An OIG inspection found that Sandia National Laboratory-New Mexico protective force
management was regularly recording telephone and radio conversations and that these
recordings were not performed in compliance with Department policies and procedures.
Specifically, we determined that various telephone conversations were recorded without
obtaining the consent of all parties; telephone line beep tones, which were an acceptable
method of alerting all parties to the recording of a conversation, were disabled without an
alternative notification mechanism being established; and telephone and radio conversation
recordings were retained and used without complying with Department records
management requirements. In responding to our report, NNSA identified corrective actions
taken or planned to address our recommendations. (IG-0701)




Project Management
Sludge Removal Operations at Hanford
                                                  An OIG audit disclosed that sludge removal
                                                  operations on the Spent Nuclear Fuels (SNF) Project
                                                  at the Department’s Hanford Site have not
                                                  commenced according to schedule and have
                                                  experienced significant cost overruns. While
                                                  technical difficulties with the sludge removal have
                                                  contributed to delays, we determined that neither
                                                  the Department nor the contractor assigned
                                                  responsibility for managing the project focused
                                                  adequate attention on the sludge removal portion of
Construction of storage tanks at the Hanford Site the SNF Project during the critical planning phase.
                                                  As a result of these factors, project milestones were
missed and cost overruns within the project could negatively impact the Department’s ability
to further accelerate cleanup work at the Hanford Site. While several actions have been
initiated to address the weaknesses noted in our report, we concluded that additional efforts
focusing on project planning and risk assessment need to be implemented. (IG-0698)




                                                  12
OFFICE OF INSPECTOR GENERAL                                   U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Office of Energy Efficiency and Renewable Energy
Cooperative Agreements
The Department, primarily through the Office of Energy Efficiency and Renewable Energy
(EERE), funds advanced energy technology through cooperative agreements with industry
and other partners. An OIG audit disclosed that over half of the cooperative agreements
included in our review did not receive sufficient management attention. In many cases,
Federal project managers did not document reviews to evaluate the merit and technical
aspects of the projects. Our audit revealed that these problems occurred, in large part,
because EERE did not devote adequate resources to the management of cooperative
agreements. During the course of our review, EERE management acknowledged weaknesses
in project management and initiated action to improve its approach. While EERE’s initial
actions are promising, we made several recommendations to further enhance project
management practices. (IG-0689)


Office of Fossil Energy Cooperative Agreements
An OIG audit disclosed that the Office of Fossil Energy was not adequately involved in
monitoring and oversight of its research project cooperative agreements. Specifically, in over
half of the projects we reviewed, Federal project officials did not always take adequate action
to address project management or financial shortcomings. Without improvement, the
cooperative agreements managed by Fossil Energy are at risk of not meeting their research
objectives and not being completed in a timely manner, which as a result, will likely cost
significantly more than originally estimated. We made several recommendations designed to
improve Fossil Energy’s management of cooperative agreements. (IG-0692)




Stockpile Stewardship
Refurbishment of the B61 Weapon System
The B61 weapon system, which is an important element of the Nation’s nuclear weapons
stockpile, is currently being refurbished at multiple sites across the Department complex.
An OIG audit determined that NNSA was at risk of not achieving the first production unit
for the B61 refurbishment within the original schedule and scope specifications. We
determined that delays could have been prevented had the proper internal control structure
been in place. In addition, at the time of our review, NNSA did not have a valid estimate of
total refurbishment costs. We concluded that NNSA’s project planning and management
processes were not adequate to ensure refurbishment completion in accordance with the original
parameters. Consequently, we made recommendations to improve management controls of the
B61 project as well as other NNSA weapons systems refurbishments. (IG-0697)



                                              13
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                      SEMIANNUAL REPORT TO CONGRESS




Delays in the Construction of the Pit Disassembly and
Conversion Facility
An OIG audit examined the delays in the construction of two facilities at the Savannah River
Site, the Pit Disassembly and Conversion Facility (Conversion Facility) and the Mixed Oxide
Fuel Fabrication Facility (MOX Facility). We confirmed that the schedule and cost
parameters outlined in the Department’s February 2002 Report to Congress will not be met
despite the high priority of the Conversion Facility project. At the time of our review,
NNSA’s estimate for completion of the Conversion Facility had been pushed back four years
to 2013 and the estimated cost will likely increase beyond original estimates of $1.7 billion.
While international policy issues appear to have played a significant role in the Conversion
Facility’s delay, we noted that NNSA had also encountered technical problems in completing
the design phase of the project. Further, NNSA had not identified a viable approach for
disposing of the waste generated by the Conversion Facility. In addition, our review
determined that delays and cost increases in the Conversion Facility will lead to similar
concerns with the MOX Facility. We made several recommendations designed to assist
NNSA in finalizing its Conversion Facility. (IG-0688)


The Los Alamos National Laboratory Hydrodynamic Test Program
                                               The National Nuclear Security Administration
                                               relies on complex computer calculations and
                                               simulations to ensure the safety, reliability, and
                                               performance of the Nation’s nuclear weapon
                                               stockpile. To complement these simulations,
                                               hydrodynamic tests (hydrotests) seek out
                                               phenomena that may not be accounted for in
                                               computer models. An OIG audit determined
                                               that LANL did not complete hydrotests as
The Los Alamos National Laboratory, New Mexico scheduled in support of NNSA’s Stockpile
                                               Stewardship Program. The Los Alamos National
Laboratory was scheduled to conduct 15 hydrotests in Fiscal Years 2002 through 2004.
However, at the time of our audit, nine hydrotests experienced delays of up to two years,
including three hydrotests that had yet to be performed. In addition, we found that LANL
may not have the capacity to meet future hydrotest needs. Our audit underscored the
continued need for improvements in NNSA’s hydrotest program. (IG-0699)




        Public reports are available in full text on our website at www.ig.doe.gov




                                                14
OFFICE OF INSPECTOR GENERAL                                 U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                   Other Significant
                   Accomplishments
Administrative Safeguards
Oversight Funds on the Yucca Mountain Project
                                             A United States House of Representatives Report
                                             for the Fiscal Year 2004 Energy and Water
                                             Development Appropriations Act directed the
                                             Department to audit the use of oversight funds
                                             associated with the Yucca Mountain Project to
                                             determine if the State of Nevada and affected
                                             units of local government used oversight funds in
                                             accordance with the terms of the Nuclear Waste
                                             Policy Act. Our audit questioned $1.2 million of
                                             the $11.7 million in oversight funds spent by
Map of Yucca Mountain in Nye County, Nevada  Nye, Lincoln, and Clark counties as well as the
                                            State of Nevada during Fiscal Years 2003 and
2004. Our review revealed that oversight funds were used for activities either unrelated to
the Yucca Mountain Project or specifically prohibited by the applicable appropriations acts.
Furthermore, we noted that OCRWM did not sufficiently monitor the State’s and counties’
usage of oversight funds. As a whole, management concurred with our recommendations
and has taken action to ensure that oversight funds are being used for their authorized
purposes. (IG-0696)


Former Subcontractor Manager Guilty of Conspiracy
As previously reported, a joint task force investigation determined that a Department
subcontractor did not comply with welding and nondestructive test requirements for valves
manufactured under various Government contracts. The investigation revealed that the
subcontractor provided substandard valves to the Government, some of which were used in
the storage of depleted uranium hexafluoride. The former Quality Assurance Manager of
the Department subcontractor pled guilty in U.S. District Court, Northern District of
Ohio, to a violation of Title 18, U.S.C. Section 371, “Conspiracy to Commit Offense or to
Defraud United States” and nuclear safety violations under Title 42, U.S.C. Section
2273(a). The subject was sentenced to 33 months incarceration, followed by 3 years
supervised release, and ordered to pay over $4 million in restitution. The investigation is
ongoing. (I01OR008)



                                              15
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                     SEMIANNUAL REPORT TO CONGRESS




Subject Pleads Guilty to Various Charges Relating to
Identification Theft
A joint OIG investigation with the FBI and the Bureau of Alcohol, Tobacco, Firearms and
Explosives of a check cashing scam determined that three individuals manufactured and stole
various forms of identification, including Department credentials, to facilitate the fraudulent
activities. Over 100 victims were identified during the investigation. Two subjects pled
guilty to multiple counts, which included four counts of Title 18, U.S.C. Section 1028(a)(3),
“Possession with Intent to Use Unlawfully Five or More Identification Documents,” one
count of Title 18, U.S.C. Section 1028(a)(5), “Possession of a Document-Making Implement
or Authentication Feature,” as well as firearm violations and other charges. One subject was
sentenced by the U.S. District Court, District of New Mexico, to 12 years and 1 month
imprisonment, and 3 years of supervised release and was ordered to pay a $700 special
assessment fee. The other subject is awaiting a sentencing date. (I04AL009)


Private Citizen Illegally Utilizes Government Purchase Card
An OIG investigation determined that a private citizen residing in Austin, Texas, utilized a
Department purchase card assigned to an employee at the Department’s Idaho National
Laboratory and fraudulently used the name and business address of the Department’s
management and operating contractor at the Laboratory to illegally purchase approximately
$10,000 worth of merchandise. The subject pled guilty in U.S. District Court, District of
Idaho, to one count of theft of Government property under Title 18, U.S.C. Section 641.
The subject was sentenced to six months incarceration, and 1-year probation and was
ordered to pay over $16,000 in restitution and fines. (I04IF007)


$41.9 Million Civil Settlement Agreement Reached
An investigation conducted jointly with numerous other law enforcement agencies of a Qui
Tam complaint filed under the False Claims Act determined that a Department contractor
knowingly submitted false travel claims to the Government. Specifically, the contractor
failed to adjust travel costs for credits or rebates received from travel vendors. The
contractor entered into a $41.9 million dollar civil settlement with the United States
Government. The Department will directly receive $425,433 as a result of the settlement.
(I03AL020)

                                     Did you know?
 The False Claims Act (Act) prohibits any person from “knowingly” presenting a “false
 or fraudulent claim for payment or approval” to the Federal Government. The Act
 authorizes individual citizens to bring private suits, referred to as Qui Tam actions, to
 enforce the Act on behalf of the Government.




                                              16
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Contractor Employee Pleads Guilty to Sexual Battery of a
Minor Child
An OIG investigation performed jointly with the Idaho Falls Police Department determined
that an INL fire department employee engaged in sexual activity with a minor. The
investigation determined that the subject had utilized a Government computer in
furtherance of his illicit actions. The subject was arrested and subsequently pled guilty to
one felony count of sexual battery to a minor under Idaho Code 18-1508A(1)(c). The
subject’s security clearance and employment were terminated. (I05IF003)


Former Security Guard Sentenced for Theft of Government
Computer Hard Drives
An OIG investigation determined that a former security guard stationed at the
Department’s Albany Research Center stole three Government computer hard drives.
Following an arrest, the subject pled guilty to one count of theft in the first degree under
Oregon Revised Statute Section 164.377 and was sentenced to 10 days incarceration, 5 days
of compensatory service, 18 months of supervised probation, and revocation of his security
guard certification with the Oregon State Department of Public Safety Standards and
Training and was ordered to have no contact with any Department property or facility. A
restitution hearing is still pending. (I03RL016)


Former Laboratory Security Guard Guilty of Theft of
Computer Equipment
An OIG investigation determined that a contractor security guard at the Department’s
National Renewable Energy Laboratory (NREL) stole more than 60 Government computer
items valued at approximately $20,000. The subject’s employment at NREL was terminated
and the subject pled guilty in U.S. District Court to one count of theft of Government
property under Title 18, U.S.C. Section 641. Sentencing is pending. (I03DN005)




                                             17
U . S . D E PA RT M E N T O F E N E R G Y              OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




Congressional Responses
During this reporting period, the OIG received 17 requests for information from Congress,
provided information in 22 instances, and briefed Committee staff on 7 occasions. In
addition, the OIG testified at three congressional hearings: (1) on April 5, 2005, before the
Subcommittee on Federal Workforce and Agency Organization, House Committee on
Government Reform, on the “Yucca Mountain Project: Have Federal Employees Falsified
Documents?”; (2) on May 5, 2005, before the House Committee on Energy and
Commerce, Subcommittee on Oversight and Investigations, on “A Review of Ongoing
Management Concerns at the Los Alamos National Laboratory”; and (3) on September 28,
2005, before the Subcommittee on Oversight and Investigations, House Committee on
Energy and Commerce, on “Guarding Against Waste, Fraud, and Abuse in Post-Katrina
Relief and Recovery: The Plans of the Inspectors General.”




Results
Highlights of Positive Results Based on Office of
Inspector General Work
During this reporting period, the Department took positive actions as a result of OIG work
conducted during the current or previous periods. Consistent with our findings and
recommendations:
   ■   The Department took actions to ensure the continued operation of critical functions in
       the event of a disaster. It issued Notice 150.1, Continuity of Operations, promulgating
       formal guidance to field sites and publishing the Department's Continuity of
       Operations Plan. Additionally, the Department is in the process of revising Order
       151.1B to enhance emergency management practices such as sharing lessons learned
       among field sites and validating the effectiveness of corrective actions implemented to
       improve the program.
   ■   The Department took positive steps to avoid incurring $16 million in costs for
       activities related to the Gas Centrifuge Enrichment Plant Cleanup Project in
       Portsmouth, Ohio.
   ■   The Y-12 Site Office disallowed post-retirement medical benefits to some BWXT Y-12
       transferees in order to ensure that benefits are based solely on the work performed for
       Department contract efforts.
   ■   The Department established well decommissioning at the Hanford Site as a priority
       and dedicated a portion of the Fiscal Year 2006 budget to decommissioning the most
       significantly contaminated wells.
   ■   The new Lawrence Berkeley National Laboratory contract included reimbursement to
       the Department for indirect costs related to home office expenses.


                                               18
OFFICE OF INSPECTOR GENERAL                               U . S . D E PA RT M E N T O F E N E R G Y
                        SEMIANNUAL REPORT TO CONGRESS




   ■   The Department will recover about $46,000 of unallowable meal costs from two
       national laboratory contractors. In addition, the Department issued a draft acquisition
       letter covering meal costs under management and operating contracts.
   ■   The Department established an Enterprise Architecture Repository describing its
       current information technology inventory and future requirements. Additionally, the
       Department made organizational changes and associated improvements to integrate the
       architecture efforts of various program offices with the overall Departmental
       architecture effort.
   ■   The Department recovered over $120,000 in unallowable conference expenses and late
       payment interest charges at the Fermi National Accelerator Laboratory.
   ■   The Department drafted new Pollution Prevention and Sustainable Environmental
       Stewardship Goals and related performance measures that will be used to report
       progress towards meeting those goals.
   ■   The Western Area Power Administration acted to improve the management of its
       projects by directing project managers to perform risk assessments of critical tasks and
       develop contingency plans to mitigate identified risks.
   ■   The National Nuclear Security Administration entered into a Memorandum of
       Understanding with the Department of Defense with regard to the requirements and
       logistics of the Joint Technical Operations Team, which provides a rapidly deployable
       technical response primarily to potential nuclear incidents.
   ■   The Department’s Savannah River Site took proactive steps to strengthen internal
       controls over methamphetamine precursor chemicals as a result of issues identified in
       our report on “Internal Controls Over Methamphetamine Precursor Chemicals at the
       Y-12 National Security Complex and the Oak Ridge National Laboratory.”
   ■   The Oak Ridge National Laboratory modified its research and development work
       control process to ensure that the safeguards and security risks/threats of all biological
       projects are appropriately identified and analyzed.
   ■   The management and operating contractor at INL modified a management control
       procedure to ensure that the accountability and chain of custody of Government
       property is maintained during the staging and transportation of excess property.
   ■   The Y-12 National Security Complex revised its access policy, tightening existing
       restrictions to prevent inappropriate access to its facilities.
   ■   The Office of Intelligence implemented an on-line training program to help ensure that
       intelligence personnel are familiar with the collection and retention requirements of
       intelligence activities.




                                                 19
U . S . D E PA RT M E N T O F E N E R G Y                   OFFICE OF INSPECTOR GENERAL
                       SEMIANNUAL REPORT TO CONGRESS




Qui Tams
Since 1996, the OIG has been instrumental in working with the Department of Justice in
Qui Tam cases. The OIG is currently working on 25 Qui Tam lawsuits involving alleged
fraud against the Government in the amount of approximately $261 million. These cases
are highly resource intensive, requiring the active participation of OIG investigative and
audit assets. However, they have proven to be targets of opportunity within the Department
with a high return on our investments.




Management Referral System
The OIG operates an extensive Management Referral System. Under this system, selected
matters received through the OIG Hotline or other sources are referred to the appropriate
Department manager or other Government agency for review and appropriate action.

The OIG referred 60 complaints to Department management and other Government
agencies during this reporting period and specifically requested Department management to
respond concerning the actions taken on 30 of these complaints. Otherwise, Department
management is asked to respond if it develops information or takes action that it believes
should be reported. The following demonstrates management’s use of OIG-provided
information to stimulate positive change or to take decisive action:
   ■   Although a Department program office review found no evidence to support an
       allegation that a contractor was using personnel reassignments to protect certain
       employees from a reduction-in-force, it did find evidence that minorities and persons
       over 40 were more likely to be adversely affected by the reduction-in-force. The
       program office directed the contractor to develop a corrective action plan and
       conducted a follow-up review of the plan’s implementation.
   ■   It was reported that a vendor’s web site falsely claimed that the vendor’s software
       complied with a current cryptographic standard. The cognizant Department program
       office determined that, although the vendor complied with an earlier version of the
       standard, it did not comply with the current version. The vendor removed the claim
       of cryptographic compliance from its website, and the program office made compliance
       with the standard a requisite component of the Department’s license agreement with
       the vendor. Further, the program office recognized that compliance with Federal
       standards was an important issue and proposed to an interagency software group
       that “validation against all government standards” be required in future Federal
       software procurements.




                                               20
OFFICE OF INSPECTOR GENERAL                              U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Intelligence Activities
The OIG issued two quarterly reports pursuant to Executive Order 12863, “President’s
Foreign Intelligence Advisory Board.” The Order requires the Inspectors General of the
Intelligence Community to report to the Intelligence Oversight Board concerning
intelligence activities the Inspectors General have reason to believe may be unlawful or
contrary to Executive order or Presidential directive. No intelligence activities were reported
during this period that were contrary to Executive order or Presidential directive.

Also, we completed our review of a matter raised during a previous reporting period and issued a
Letter Report on “Counterintelligence Evaluation Program Collection and Retention Activities.”
We determined that officials with the Department’s Office of Counterintelligence collected and
retained financial information on individuals without a foreign nexus, which may have been a
violation of Executive Order 12333, “United States Intelligence Activities.” Although the Office
of Counterintelligence ceased these collection activities, they retained the information. In
response to our report recommendation, the Department’s General Counsel will confer with the
Office of Counterintelligence to provide written guidance on information collection and
retention requirements in Executive Order 12333.




Legislative and Regulatory Review
The Inspector General Act of 1978, as amended, requires the OIG to review and comment
upon legislation and regulations relating to Department programs and to make
recommendations concerning the impact of such legislation or regulations on Departmental
economy and efficiency. The OIG coordinated and reviewed 72 legislative and regulatory
items and Department directives during the reporting period.




Hotline System
The OIG operates a Hotline System to facilitate the reporting of allegations involving the
programs and activities under the auspices of the Department. During this reporting
period, 760 complaints were processed. The OIG Hotline System can be reached by calling
1-800-541-1625 or 1-202-586-4073.




                                               21
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
               SEMIANNUAL REPORT TO CONGRESS




                     This page intentionally left blank.




                                     22
OFFICE OF INSPECTOR GENERAL                     U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




                    Reports Issued
Audit Reports Issued – April 1, 2005, to September 30, 2005

Report                                                 Date of                 Questioned
Number                        Title                     Issue      Savings       Costs
IG-0684          Deactivating and                      04-14-05   $2,000,000
                 Decommissioning Facilities at the
                 Savannah River Site
IG-0685          The Retention and Management          04-15-05   $2,000,000
                 of the Department’s Records
IG-0686          Development and Implementation        04-21-05
                 of the Department’s Enterprise
                  Architecture
IG-0688          National Nuclear Security             05-03-05 $204,000,000
                 Administration’s Pit Disassembly
                 and Conversion Facility
IG-0689          Selected Energy Efficiency and        05-12-05                   $252,000
                 Renewable Energy Projects
IG-0690          Contractor Post-Retirement            05-20-05                   $525,272
                 Health Benefits at the
                 Oak Ridge Reservation
IG-0692          Management of Fossil Energy           07-08-05                $33,000,000
                 Cooperative Agreements
IG-0696          Use of Oversight Funds by the State   07-29-05                 $1,175,864
                 of Nevada and Affected Units of
                 Local Government
IG-0697          The National Nuclear Security         08-30-05
                 Administration’s Refurbishment
                 of the B61
IG-0698          Sludge Removal Operations at the      09-09-05
                 Hanford Site’s K Basins
IG-0699          The Los Alamos National               09-16-05
                 Laboratory Hydrodynamic
                 Test Program


                                                  23
U . S . D E PA RT M E N T O F E N E R G Y                OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                           Date of                    Questioned
Number                 Title                      Issue        Savings        Costs
IG-0700       The Department’s Unclassified      09-27-05
              Cyber Security Program – 2005
IG-0702       Use of Performance Based           09-30-05    $3,995,887
              Incentives by the Office of
              Civilian Radioactive
              Waste Management
OAS-M-05-04   Management Controls over           04-20-05                        $255,425
              Meal Expenses at Management
              and Operating Contractors
OAS-M-05-05   Management Controls over           05-10-05       $252,000
              Patent and Royalty Income
              at Ames Laboratory
OAS-M-05-06   Management Controls over           06-03-05
              Selected Departmental Critical
              Monitoring and Control Systems
OAS-M-05-07   Management Controls over the       06-13-05
              Technology Transfer and
              Commercialization Program at
              the Idaho National Laboratory
OAS-M-05-08   Management Controls over the       08-11-05
              National Environmental Policy
              Act Decisions at the Idaho
              Operations Office
OAS-L-05-06   Contractor-Provided Meals for      05-09-05
              Federal Employees
OAS-L-05-07   The Department of Energy’s         06-10-05
              Annual Report to Congress on
              Management and Operating
              Contractor Employees in the
              Washington, D.C. Area
OAS-L-05-08   Department of Energy’s             06-16-05
              Implementation of its Chronic
              Beryllium Disease Prevention
              Program




                                            24
OFFICE OF INSPECTOR GENERAL                        U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                                Date of              Questioned
Number                        Title                    Issue     Savings     Costs
OAS-L-05-09         National Nuclear Security         08-11-05
                    Administration’s Deferred
                    Maintenance
OAS-L-05-10         Agreed-Upon Procedures for        07-29-05
                    Federal Payroll
OAS-L-05-11         Management of the Off-site        08-11-05
                    Sealed Sources Recovery Project
OAS-L-05-12         Limited Life Component            08-08-05
                    Exchange Program
OAS-V-05-06         Assessment of Changes to the     04-21-05
                    Internal Control Structure and
                    Their Impact on the Allowability
                    of Costs Claimed by and
                    Reimbursed to Bechtel BWXT
                    Idaho, LLC Under Department
                    of Energy Contract No.
                    DE-AC07-99ID13727
OAS-V-05-07         Assessment of Changes to the     05-09-05                 $137,294
                    Internal Control Structure and
                    Their Impact on the Allowability
                    of Costs Claimed by and
                    Reimbursed to Fermi National
                    Accelerator Laboratory Under
                    Department of Energy Contract
                    No. DE-AC02-76CH03000
OAS-V-05-08         Assessment of Changes to the     05-19-05
                    Internal Control Structure and
                    Their Impact on the Allowability
                    of Costs Claimed by and
                    Reimbursed to UT-Battelle, LLC
                    Under Department of Energy
                    Contract No. DE-AC05-00OR22725




                                                25
U . S . D E PA RT M E N T O F E N E R G Y               OFFICE OF INSPECTOR GENERAL
                SEMIANNUAL REPORT TO CONGRESS




Report                                         Date of                    Questioned
Number                Title                     Issue        Savings        Costs
OAS-V-05-09   Assessment of Changes to the     07-28-05
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to the Westinghouse
              Savannah River Company Under
              Department of Energy Contract
              No. DE-AC09-96SR18500
OAS-V-05-10   Review of the Independent        07-25-05
              Auditor’s Report on Los Alamos
              County for the Year Ending
              June 30, 2003
OAS-V-05-11   Assessment of Changes to the     08-11-05
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to BWXT Y-12, LLC
              Under Department of Energy
              Contract No.
              DE-AC05-00OR22800
OAS-V-05-12   Assessment of Changes to the     08-19-05                           $5,881
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to Argonne
              National Laboratory Under
              Department of Energy
              Contract No.
              W-31-109-ENG-38
OAS-V-05-13   Assessment of Changes to the     08-31-05
              Internal Control Structure and
              Their Impact on the Allowability
              of Costs Claimed by and
              Reimbursed to Bechtel Jacobs
              Company, LLC Under
              Department of Energy
              Contract Nos.
              DE-AC05-98OR22700 and
              DE-AC05-03OR22980



                                        26
OFFICE OF INSPECTOR GENERAL                      U . S . D E PA RT M E N T O F E N E R G Y
                       SEMIANNUAL REPORT TO CONGRESS




Report                                              Date of               Questioned
Number                        Title                  Issue      Savings     Costs
OAS-V-05-14         Assessment of Changes to the     09-29-05
                    Internal Control Structure and
                    Their Impact on the Allowability
                    of Costs Claimed by and
                    Reimbursed to West Valley
                    Nuclear Services Co., Inc.,
                    Under Department of Energy
                    Contract No.
                    DE-AC24-81NE44139 for
                    Fiscal Years 1999 through 2004
OAS-FS-05-05        Federal Energy Regulatory       05-10-05
                    Commission’s Fiscal Year 2004
                    Financial Statement Audit
OAS-FS-05-06        Department of Energy Isotope    06-13-05
                    Program’s Fiscal Year 2004
                    Financial Statement Audit




                                              27
U . S . D E PA RT M E N T O F E N E R G Y             OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Reports Issued –
April 1, 2005, to September 30, 2005*

Report Number                 Title                                                        Date of Issue

IG-0687                       Property Control and Accountability at the Idaho                  04-28-05
                              National Laboratory
INS-L-05-04                   Beryllium Contamination Concerns at the Y-12                      06-03-05
                              National Security Complex
IG-0691                       Security Access Controls at the Y-12 National                     06-14-05
                              Security Complex
INS-L-05-05                   Inspection of Procurement of Security Equipment                   06-15-05
IG-0693                       Review of Security at the Strategic Petroleum Reserve             06-17-05
IG-0694                       Protective Force Training at the Department of Energy’s           06-24-05
                              Oak Ridge Reservation
INS-L-05-06                   Survey of Selected Department of Energy Intelligence              06-28-05
                              Collection Activities
IG-0695                       Coordination of Biological Select Agent Activities                07-27-05
                              at Department of Energy Facilities
INS-L-05-07                   Disposal of Personal Property at Southwestern                     08-17-05
                              Power Administration
INS-L-05-08                   Counterintelligence Evaluation Program Collection                 09-23-05
                              and Retention Activities
IG-0701                       Electronic Recording of Telephone and Radio                       09-30-05
                              Conversations by Sandia Protective Force Management
IG-0703                       Characterization Wells at Los Alamos National Laboratory          09-30-05
*Does not include non-public reports




                                                      28
OFFICE OF INSPECTOR GENERAL                                       U . S . D E PA RT M E N T O F E N E R G Y
                             SEMIANNUAL REPORT TO CONGRESS




                        Statistical Information

Audit Report Statistics – April 1, 2005, to September 30, 2005
The following table shows the total number of operational and financial audit reports and the
total dollar value of the recommendations:


                                            Total            One Time                 Recurring             Total
                                           Number             Savings                  Savings             Savings
Those issued before the                          4       $1,565,219,640               $6,000,000 $1,571,219,640
reporting period for which
no management decision
has been made*
Those issued during                             36          $247,599,623                           $0     $247,599,623
the reporting period
Those for which a                               19          $278,639,498                           $0     $278,639,498
management decision was
made during the
reporting period*
Agreed to by management                                     $233,739,054                           $0     $233,739,054
Not agreed to by management                                     $5,443,996                         $0       $5,443,996
Those for which a                               14                          $0                     $0                $0
management decision is
not required
Those for which no                               7       $1,573,636,213               $6,000,000 $1,579,636,213
management decision has
been made at the end of the
reporting period*
*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              29
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                        SEMIANNUAL REPORT TO CONGRESS




Audit Report Statistics – April 1, 2005, to September 30, 2005
The following table shows the total number of contract audit reports and the total dollar value of
questioned and unsupported costs:

                                                       Total Questioned              Unsupported
                                                      Number   Costs                    Costs
Those issued before the reporting period                 1          $151,354               $0
for which no management decision
has been made
Those issued during the reporting period                 0                  $0             $0
Those for which a management decision                    0                  $0             $0
was made during the reporting period
Value of disallowed costs                                                   $0             $0
Value of costs not disallowed                                               $0             $0
Those for which a management decision                    0                  $0             $0
is not required
Those for which no management                            1          $151,354               $0
decision has been made at the end
of the reporting period




Reports Lacking Management Decision
The Department has a system in place to track audit reports and management decisions.
Its purpose is to ensure that recommendations and corrective actions indicated by audit
agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below are audit reports over six months old that were issued before the
beginning of the reporting period and for which no management decisions had been
made by the end of the reporting period. The reasons management decisions had not been
made and the estimated dates (where available) for achieving management decisions are
also included.

   ■   Contract Audits
       ER-C-97-01: Report on Interim Audit of Costs Incurred Under Contract No.
       DE-AC24-92OR219721 from October 1, 1994, to September 30, 1995, Fernald
       Environmental Restoration Management Corporation, Fernald, Ohio,
       December 20, 1996 – The finalization of the management decision for this contract report
       is pending the completion of analyses and other actions required to support the Contracting


                                                 30
OFFICE OF INSPECTOR GENERAL                                  U . S . D E PA RT M E N T O F E N E R G Y
                        SEMIANNUAL REPORT TO CONGRESS




       Officer’s final determination on the settlement of questioned costs. The estimated closure
       date is December 31, 2005.

   ■   Management Audits
       CR-B-99-02: Management of Unneeded Materials and Chemicals, September 30,
       1999 – The finalization of the management decision is pending the completion of the
       Department’s disposition program for the unneeded materials and chemicals. The elements
       assigned to develop the disposition programs are currently finalizing the plans to identify
       and categorize unneeded materials for their respective organizations. Completion of all
       actions is expected by December 30, 2005.

       IG-0565: Salt Processing Project at the Savannah River Site, August 27, 2002 –
       The finalization of the management decision for this report is pending the completion and
       approval of the determination for salt waste disposal, in accordance with Section 3116 of
       the National Defense Authorization Act for Fiscal Year 2005. This determination should
       occur by November 30, 2005.

       IG-0669: Use and Management of Mobile Communications Services, December 14,
       2004 – The finalization of the management decision for this report is awaiting review
       and concurrence by the necessary Departmental elements. This should occur by
       December 31, 2005.




Prior Significant Recommendations Not Implemented
As of September 2005, closure actions on recommendations in 39 OIG reports had not
been fully implemented within 12 months from the date of report issuance. This includes
actions on 36 operational, performance, and financial reports and 3 contract reports. The
OIG is committed to working with management to expeditiously address the management
decision and corrective action process, recognizing that certain initiatives will require long-
term, sustained, and concerted efforts. The Department has undertaken a series of
initiatives to strengthen its process for addressing recommendations in OIG reports and
closed 348 recommendations in the last 6 months. Management updates the Departmental
Audit Report Tracking System on a quarterly basis, most recently in September 2005.
Information on the status of any report recommendation can be obtained through the
OIG’s Office of Audit Services and Office of Inspections and Special Inquiries.




                                                  31
U . S . D E PA RT M E N T O F E N E R G Y                    OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL REPORT TO CONGRESS




Inspection Statistics – April 1, 2005, to September 30, 2005
Inspections/Special Inquiries open at the start of this reporting period                                                        74
Inspections/Special Inquiries opened during this reporting period                                                               24
Inspections/Special Inquiries closed during this reporting period                                                               18
Inspections/Special Inquiries open at the end of this reporting period                                                          80
Reports issued (includes non-public reports)                                                                                    17
Report Recommendations*
          Issued this reporting period                                                                                          39
          Accepted by management this reporting period                                                                          37
          Implemented by management this reporting period                                                                       56
Complaints referred to Department management/others                                                                             60
          Referrals to Department management requesting a response for OIG evaluation                                           30
*Includes non-public report recommendations




Hotline Statistics – April 1, 2005, to September 30, 2005
Hotline calls, emails, letters, and other complaints                                                                       760*
Hotline calls, emails, letters, and other complaints predicated                                                             208
Unresolved Hotline predications from previous reporting period                                                                  28
          Total Hotline predications                                                                                        236
Hotline predications transferred to the Management Referral System                                                              95
Hotline predications closed based upon preliminary OIG activity                                                             130
Hotline predications pending disposition                                                                                        11
          Total predications processed                                                                                      236
*The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                               32
OFFICE OF INSPECTOR GENERAL                                                   U . S . D E PA RT M E N T O F E N E R G Y
                              SEMIANNUAL REPORT TO CONGRESS




Investigative Statistics – April 1, 2005, to September 30, 2005
Investigations open at the start of this reporting period                                                                    249
Investigations opened during this reporting period                                                                            62
Investigations closed during this reporting period                                                                            33
Investigations open at the end of this reporting period                                                                      278
Qui Tam investigations opened                                                                                                      2
          Total open Qui Tam investigations as of 9/30/05                                                                     25
Multi-agency task force investigations opened                                                                                 18
          Total open multi-agency task force investigations as of 9/30/05                                                    122
Investigative reports to prosecutors and Department management                                                                16
Recommendations to management for positive change and other actions                                                           19
Administrative discipline and other management actions                                                                        38
Suspensions/Debarments                                                                                                        16
Investigations referred for prosecution                                                                                       17
           Accepted*                                                                                                          18
           Indictments                                                                                                        10
           Criminal convictions                                                                                                    6
           Pretrial diversions                                                                                                     1
           Civil actions                                                                                                           4
Fines, settlements, recoveries**                                                                             $5,680,993.27
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                                 33
U . S . D E PA RT M E N T O F E N E R G Y                                    OFFICE OF INSPECTOR GENERAL
                            SEMIANNUAL REPORT TO CONGRESS




Feedback Sheet
The contents of the October 2005 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any
suggestions for making the report more responsive, please complete this feedback sheet
and return it to:

          United States Department of Energy
          Office of Inspector General (IG-1)
          Washington, D.C. 20585

          ATTN: Juston Fontaine



Name: __________________________________________________________________


Daytime Telephone Number: ________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed.)




                                               34
OFFICE OF INSPECTOR GENERAL                            U . S . D E PA RT M E N T O F E N E R G Y
FINAL DOE RPT COVERS.QXD     10/27/05   9:30 AM   Page 2




            Front Cover


            From left to right:

            A barge shown docked at Phillips Terminal at the Strategic Petroleum Reserve in
            Bryan Mound, Texas.

            Wind turbines at Storm Lake, Iowa.

            High pressure water being used to blast salt cake into manageable fragments in a waste tank
            mockup at the Hanford Site.

            The McNary Dam, which is one entity of the Bonneville Power Administration’s responsibility
            for transmission and wholesale marketing of power generated at dams in the Federal River
            Power System.

            A sodium cooled reactor for testing fuels and materials under normal operating conditions at the
            Fast Flux Test Facility.
FINAL DOE RPT COVERS.QXD   10/27/05   9:30 AM   Page 1
